No. 19-511
In the

Supreme Court of the United States

FACEBOOK INC.,
Petitioners,
v.
NOAH DUGUID, INDIVIDUALLY AND ON BEHALF
OF HIMSELF AND OTHERS SIMILARLY SITUATED,
Respondents.

On Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit

BRIEF AMICI CURIAE OF 21 MEMBERS OF
CONGRESS SUPPORTING AFFIRMANCE
Keith J. Keogh
Counsel of Record
Keogh Law, Ltd.
55 West Monroe Street, Suite 3390
Chicago, IL 60603
(866) 726-1092
keith@keoghlaw.com
Counsel for Amici Curiae
299288

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

The TCPA is a critical law that stops
intrusions on Americans’ privacy, deters
scams, and protects the integrity of the
telephone as a means of communication . . . . . . . 5
A. A bipartisan Congress enacted the
TCPA to stop the scourge of robocalls  . . . . 5
B. The TCPA deters countless robocalls
and prot ects A mer icans f rom
scammers who use robocalls to prey on
consumers . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
C. Na r row i ng the TCPA wou ld be
disastrous for A mer ica because
unrestr icted robocalls would
completely undermine the telephone
as a means of communication . . . . . . . . . . . 12

II. Facebook should be affirmed  . . . . . . . . . . . . . . . 14

ii
Table of Contents
Page
A. ATDS Is Not Limited to Devices
that Randomly Produce Telephone
Numbers . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
B. The Statutory Context Confirms
Regulation of List-Based Dialing
Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Appendix  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Allan v. Penn. Higher Educ. Assistance Agency
2020 U.S. App. LEXIS 23935
(6th Cir. July 29, 2020) . . . . . . . . . . . . . . . . . . . . . . . .  17
Barr v. Am. Ass’n of Political Consultants,
140 S. Ct. 2335 (2020) . . . . . . . . . . . . . . . . . . . . . . . 5, 10
Duguid v. Facebook, Inc.,
926 F.3d 1146 (9th Cir. 2019)  . . . . . . . . . . . . . . . . 15, 18
Duran v. La Boom Disco, Inc.,
955 F.3d 279 (2d Cir. 2020) . . . . . . . . . . . . . . . . . .  15, 17
Marks v. Crunch San Diego, LLC,
904 F.3d 1041 (9th Cir. 2018) . . . . . . . . . . . . . . . .  15, 16
Osorio v. State Farm Bank, F.S.B.,
746 F.3d 1255 (11th Cir. 2014)  . . . . . . . . . . . . . . . . . . . 5
Statutes
47 U.S.C. § 227  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
47 U.S.C. § 227(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 14
47 U.S.C. § 227(b)(1)(a) . . . . . . . . . . . . . . . . . . . . . . . . .  9, 16
47 U.S.C. § 227(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

iv
Cited Authorities
Page
Telephone Consumer Protection Act of 1991,
Pub. L. No. 102-243 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities
137 Cong. Rec. 11310 (1991) . . . . . . . . . . . . . . . . . . . . . . . . 6
137 Cong. Rec. 30 (1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
137 Cong. Rec. 30821 (1991)  . . . . . . . . . . . . . . . . . . . . . . . 6
Americans Hit by Over 58 Billion Robocalls in
2019, Says YouMail Robocall Index, Cision
PR Newswire (Jan 15, 2020), https://www.
prnewswire.com/news-releases/americanshit-by-over-58-billion-robocalls-in-2019-saysyoumail-robocall-index-300987126.html  . . . . . . . . . 10
Bills to Amend the Communications Act of
1934 to Regulate the Use of Telephones in
Making Commercial Solicitations and to
Protect the Privacy Rights of Subscribers:
Hear in g o n H.R . 1304 an d H.R . 1305
before the Subcomm. on Telecomm. and
Fin. of the House Comm. on Energy and
Commerce, 102nd Cong. 2 (1991)  . . . . . . . . . . . . . . 2, 7
Ela i ne S . Pov ich, St a t es Tr y t o Sil en ce
Robocalls, But They’re Worse Than Ever,
Pew Research Ctr. (July 25, 2018)  . . . . . . . . . . . . . . 13

v
Cited Authorities
Page
FCC, FCC ISSUES $120 MILLION FINE FOR
SPOOFED ROBOCALLS (2018), https://www.
fcc.gov/document/fcc-fines-massive-neighborspoofing-robocall-operation-120-million. . . . . . . . . . 12
Gail Collins, Let’s Destroy Robocalls, N.Y. Times
(Mar. 1, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
H.R. Rep. No. 102-317 (1991) . . . . . . . . . . . . . . . . .  2-3, 6, 7
H e r b We i s b a u m , It ’ s No t Ju s t Yo u —
Americans Received 30 Billion Robocalls
Last Year, NBC News (Jan. 17, 2018) . . . . . . . . . . . . 10
https://www.fcc.gov/covid-19-robocall-scams . . . . . . . . 10
Illegal Robocalls: Calling all to Stop the
Scourge: Hearing before the Subcommittee
O n C o m m u n i c a t i o n s , Te c h n o l o g y ,
Inn o v a ti o n , a n d th e In t e r n e t , of th e
Committee on Commerce, Science, and
Transportation, 116th Cong. (Apr. 11, 2019) . . . . . . 4
It’s Not Just You—Americans Received 30
Billion Robocalls Last Year, NBC News
(Jan. 17, 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Octavio Blanco, Mad About Robocalls, Consumer
Reps. (Apr. 2, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

vi
Cited Authorities
Page
S. Rep. No. 102-178 (1991) . . . . . . . . . . . . . . . . . . . . . 2, 7, 8
S. Rep. No. 116-41 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . 12
S.1462 – Telephone Consumer Protection
Ac t of 1991 - Ac ti o n s, C ong r e s s . g ov,
ht t p s : // w w w. c o n g r e s s . g o v/ b i l l / 10 2 n d congress/senate-bill/1462/actions . . . . . . . . . . . . . . . . 5
T a r a S i e g e l B e r n a r d , Ye s , I t ’ s B a d .
Robocalls, and Their Scams, Are Surging
(N.Y. Times, May 6, 2018)  . . . . . . . . . . . . . . . . . .  10, 13
T h e A u t o m a t e d Te l e p h o n e C o n s u m e r
Protection Act of 1991: Hearing on S. 1462
before the Sen. Subcomm. on Commc’ns
of the Comm . on Commerce, Sci ., and
Transp., 102nd Cong. (July 24, 1991)  . . . . . . . . . 3, 6, 8
The FCC’s Push to Combat Robocalls & Spoofing,
https://www.fcc.gov/about-fcc/fcc-initiatives/
fccs-push-combat-robocalls-spoofing . . . . . . . . . . . . . 9
Tim Harper, Why Robocalls are Even Worse
Than You Thought, C onsu m er R eport s ,
May 15, 2019, available at https://w w w.
consumerreports.org/robocalls/why-robocallsare-even-worse-than-you-thought//  . . . . . . . . . . . 4, 12
Yes, It’s Bad. Robocalls, and Their Scams, Are
Surging, N.Y. Times (May 6, 2018) . . . . . . . . . . . . . . 10

1
INTEREST OF AMICI CURIAE1
Amici are Members of Congress, some of whom were
instrumental in the enactment of the Telephone Consumer
Protection Act (TCPA), 47 U.S.C. §227 (hereinafter TCPA),
and all of whom have had experience with Congress’
role in legislative oversight of the TCPA. Thus, amici
are particularly well placed to provide the Court with
background on the text, structure, and history of the TCPA
and the manner in which it was intended to operate.
Amici have unique knowledge and a strong interest in
ensuring that the TCPA is construed by the federal courts
in accord with its text and purpose.
A full listing of congressional amici appears in
Appendix A.
SUMMARY OF ARGUMENT
In 1991, a bipartisan Congress enacted the TCPA
to stop the scourge of robocalls because “[b]anning such
automated or prerecorded telephone calls. . . is the only
effective means of protecting telephone consumers from
this nuisance and privacy invasion.” Telephone Consumer
Protection Act of 1991, Pub. L. No. 102-243, 105 Stat.
1. Pursuant to Rule 37.6, Amicus Curiae affirms that no counsel
for a party authored this brief in whole or in part, and no counsel or
party made a monetary contribution intended to fund the preparation
or submission of this brief. No person other than Amicus Curiae,
its members, or its counsel made a monetary contribution to its
preparation or submission. Respondents’ letters consenting to the
filing of amicus briefs in support of either party has been filed with
the Clerk. Petitioners have separately consented to this amicus brief.

2
2394–95. The TCPA remains an essential, if not more
essential, piece of legislation today. By restricting calls
made to cell phones using robocall technology, among
other provisions, the TCPA prevents a countless number
of unwanted robocalls every year, every day, and indeed
every hour and minute, from intruding on Americans’
privacy, scamming their wallets, and undermining their
confidence in the nation’s telephone networks.
Congress recognized the implications of unregulated
robocalls and accordingly banned unsolicited autodialed
calls to cellular telephone numbers and other specialized
telephone lines. 47 U.S.C. § 227(b)(3); see also S. Rep.
No. 102-178, at 5 (1991), reprinted in 1991 U.S.C.C.A.N.
1968, 1972–1973 (“The Committee believes that Federal
legislation is necessary to protect the public from
automated telephone calls. These calls can be an invasion
of privacy, an impediment to interstate commerce, and a
disruption to essential public safety services.”).
As then Representative Markey put it: “The reason for
the proliferation of such unsolicited advertising over our
Nation’s telecommunications network is that companies
can now target their marketing . . . corporate America
has your number.” Bills to Amend the Communications
Act of 1934 to Regulate the Use of Telephones in Making
Commercial Solicitations and to Protect the Privacy
Rights of Subscribers: Hearing on H.R. 1304 and H.R.
1305 before the Subcomm. on Telecomm. and Fin. of the
House Comm. on Energy and Commerce, 102nd Cong. 2
(1991) (statement of Rep. Markey).
A growing number of telemarketers had also begun
to pair their databases with automatic dialing technology
“to increase their number of customer contacts.” H.R.

3
Rep. No. 102-317, at 10 (1991). Congress was concerned
autodialers were exacerbating the growing problem
of unsolicited calls, as they were being used to make
“millions of calls every day” and “each system has the
capacity to automatically dial as many as 1,000 phones
per day.” H.R. Rep. No. 102-317, at 10 (1991).
One such dialing technology in use when Congress
enacted the TCPA in 1991 was predictive dialers. See
The Automated Telephone Consumer Protection Act of
1991: Hearing on S. 1462 before the Sen. Subcomm. on
Commc’ns of the Comm. on Commerce, Sci., and Transp.,
102nd Cong. 16 (1991) (testimony of Robert S. Bulmash
that thirty to forty percent of telemarketers were using
predictive dialers in 1991). Then, as now, predictive dialers
dialed numbers from lists automatically, and algorithms
predicted how many consumers would answer. If someone
answered, the call would be transferred to a live agent, if
an agent was available. In doing so, the predictive dialing
system would dial many numbers for every available
agent. This often resulted in the dialer hanging up on the
consumer when an agent was unavailable or would result
in a long pause while the call was transferred to the agent.
Thus, Congress defined Automatic Telephone Dialing
System (“ATDS”) to encompass systems like predictive
dialers that dial telephone numbers stored in a list or
database (the “store” prong) and systems that dial
arbitrary numbers produced by a random or sequential
number generator (the “produce” prong). See 47 U.S.C.
§ 227(a)(1) (ATDS “means equipment which has the
capacity—(A) to store or produce telephone numbers to
be called, using a random or sequential number generator;
and (B) to dial such numbers.”) (emphasis added).

4
The TCPA has been consistently enforced to include
both randomly dialed numbers and dialing from databases
without consent. Even then, complaints about robocalls
have increased. Simply put, robocalls are not only a
nuisance to those that receive them, they are threatening
the viability of the telephone as a useful means of
communication. As Senator Brian Schatz has noted,
“robocalls have turned us into a nation of call screeners,”
which presents a “significant economic issue.” Illegal
Robocalls: Calling all to Stop the Scourge: Hearing before
the Subcommittee On Communications, Technology,
Innovation, and the Internet, of the Committee on
Commerce, Science, and Transportation, 116th Cong.
(Apr. 11, 2019). Many people now refuse to answer calls
from numbers they do not recognize, which can lead to
harmful results. See e.g., Tim Harper, Why Robocalls
are Even Worse Than You Thought, Consumer Reports,
May 15, 2019, available at https://www.consumerreports.
org/robocalls/why-robocalls-are-even-worse-than-youthought// (reporting delays in medical treatment because
people no longer respond to calls from medical specialists).
Thus, a narrow reading of the TCPA to exclude dialing
from databases and limit application to numbers that were
randomly generated would reverse decades of precedent
and gives a green light to telemarketers and scammers
who will suddenly be free to initiate billions of automated
calls to Americans who have a united distain for intrusive
robocalls.

5
ARGUMENT
I.

The TCPA is a critical law that stops intrusions
on Americans’ privacy, deters scams, and protects
the integrity of the telephone as a means of
communication.
A.

A bipartisan Congress enacted the TCPA to
stop the scourge of robocalls.

As noted by this Court just this year, “Americans
passionately disagree about many things. But they are
largely united in their disdain for robocalls. The Federal
Government receives a staggering number of complaints
about robocalls—3.7 million complaints in 2019 alone. The
States likewise field a constant barrage of complaints. For
nearly 30 years, the people’s representatives in Congress
have been fighting back.” Barr v. Am. Ass’n of Political
Consultants, 140 S. Ct. 2335, 2343 (2020)
Congress has been fighting back through the TCPA,
which is the product of overwhelming bipartisan support,
enjoying both Democratic and Republican co-sponsors
in Congress, and passing both houses by voice vote in
November 1991. S.1462 – Telephone Consumer Protection
Act of 1991 - Actions, Congress.gov, https://www.congress.
gov/bill/102nd-congress/senate-bill/1462/actions.
“Senator Hollings, the TCPA’s sponsor, described
these calls as ‘the scourge of modern civilization. They
wake us up in the morning; they interrupt our dinner
at night; they force the sick and elderly out of bed; they
hound us until we want to rip the telephone out of the
wall.’” Osorio v. State Farm Bank, F.S.B., 746 F.3d 1242,

6
1255–56 (11th Cir. 2014) (quoting 137 Cong. Rec. 30821
(1991)). Similarly, Congressman Markey, another one of
the TCPA’s authors, noted “the aim of this legislation is
… to secure an individual’s right to privacy that might be
unintentionally intruded upon by these new technologies.
For this reason the legislation addresses live unsolicited
commercial telemarketing to residential subscribers.” 137
Cong. Rec. 11310 (1991).
As the House Committee on Energy and Commerce
reported at the time, new and “sophisticated, computer
driven telemarketing tools have caused the frequency and
number of unsolicited telemarketing calls [to] increase
markedly.” H.R. Rep. No. 102-317, at 6 (1991). “[T]he entire
sales to service marketing function has been automated.
Modern telemarketing software organizes information on
current and prospective clients into databases designed to
support businesses in every aspect of telephone sales[.]”
Id. at 7. “Hundreds of companies” had begun developing
and selling computer database telemarketing applications.
Ibid. Other companies had begun to sell instructional
videos on how to engage in “Database Marketing.” Id. at 8.
As it was debating the TCPA, Congress was already
aware a burgeoning market for consumer contact
information also made it easier than ever for telemarketers
to fill their databases with phone numbers of consumers
or businesses to call. Id. at 7 (“Businesses routinely
purchase data from multiple sources in an effort to create
unique product or service specific databases.”); see also
The Automated Telephone Consumer Protection Act of
1991: Hearing on S. 1462 before the Sen. Subcomm. on
Commc’ns of the Comm. on Commerce, Sci., and Transp.,
102nd Cong. 27 (July 24, 1991) (“There are list brokers out

7
there whose business it is to sell phone numbers, names,
and so on and so forth, to the telemarketing industry[.]”)
(Stmt. Of Robert S. Bulmash).
These advances in database telemarketing had resulted
in an explosion of telemarketing calls. As noted above,
unsolicited telemarketing was rapidly expanding prior to
1991 because companies obtained consumers’ telephone
numbers to use to make unwanted to telemarketing
calls. See Bills to Amend the Communications Act
of 1934 to Regulate the Use of Telephones in Making
Commercial Solicitations and to Protect the Privacy
Rights of Subscribers: Hearing on H.R. 1304 and H.R.
1305 before the Subcomm. on Telecomm. and Fin. of the
House Comm. on Energy and Commerce, 102nd Cong. 2
(1991). Congress clearly intended to address this concern
of dialing from lists.
These list-based dialing systems were paired with
automatic dialing technology “to increase their number
of customer contacts.” H.R. Rep. No. 102-317, at 10 (1991).
Congress was concerned autodialers were exacerbating
the growing problem of unsolicited calls, as they were
being used to make “millions of calls every day” and “each
system has the capacity to automatically dial as many as
1,000 phones per day.” H.R. Rep. No. 102-317, at 10 (1991).
Congress found autodialers to be particularly problematic
when used to call cellular telephone numbers, because
they “impose a cost on the called party . . . cellular users
must pay for each incoming call.” S. Rep. No. 102-178,
at 2 (1991). These concerns (the sheer number of calls
and the costs they impose on cellular telephone users)
extended beyond the dialing of arbitrary phone numbers
generated by random or sequential number generators.

8
Indeed, Congress was aware that only “some automatic
dialers” generated random numbers. S. Rep. No. 102-178,
at 2 (1991) (emphasis added).
By the time the TCPA was enacted in 1991, thirty
to forty percent of telemarketers were using predictive
dialing systems according to the testimony presented
to Congress. See The Automated Telephone Consumer
Protection Act of 1991: Hearing on S. 1462 before the Sen.
Subcomm. on Commc’ns of the Comm. on Commerce,
Sci., and Transp., 102nd Cong. 16 (1991) (testimony of
Robert S. Bulmash).
The fact Congress intended the definition of ATDS
to cover automated calls made from lists, in which live
operators came on the line after the recipient answered
the call, is illustrated by the discussion in the House
Committee about the nuisance caused by these machines.
Testimony was provided before Congress in 1991 that
outlined the nuisance caused by these autodialing
machines, as distinguished from calls using prerecorded
voices: “What we are encountering is many people picking
up the phone, hearing dead air and then being hung up on.”
See The Automated Telephone Consumer Protection Act
of 1991: Hearing on S. 1462 before the Sen. Subcomm. on
Commc’ns of the Comm. on Commerce, Sci., and Transp.,
102nd Cong. 16 (testimony of Robert S. Bulmash); see
also id. at 24-25.
Congress acted by banning the use of any automatic
telephone dialing system (ATDS) to place calls to cellular
telephone numbers and other specialized telephone lines,
unless such calls were “made for emergency purposes” or
“made with the prior express consent of the called party.”

9
47 U.S.C. § 227(b)(1)(A). In order to ensure the industry
did not defeat the aim of the TCPA, Congress defined
ATDS to encompass systems like predictive dialers that
dial telephone numbers stored in a list or database (the
“store” prong) and systems that dial arbitrary numbers
produced by a random or sequential number generator
(the “produce” prong). See 47 U.S.C. § 227(a)(1) (ATDS
“means equipment which has the capacity—(A) to store
or produce telephone numbers to be called, using a
random or sequential number generator; and (B) to dial
such numbers.”) (emphasis added). By including the store
prong, Congress ensured it did not exclude the list based
dialing systems that it was concerned about, and which at
least thirty to forty percent of telemarketers were using
at the time of enactment.
B. The TCPA deters countless robocalls and
protects Americans from scammers who use
robocalls to prey on consumers.
Since 1991, the TCPA has stopped a countless
number of calls from reaching mobile phones that sit in
people’s pockets, purses, and palms. Public and private
enforcement has helped discourage telemarketers and
others from using automated calling technology to contact
consumers without their prior consent.
Nevertheless, the need for the TCPA’s protections
is ongoing as automated telephone calls continue to
proliferate. “Unwanted calls are far and away the biggest
consumer complaint to the FCC with over 200,000
complaints each year – around 60 percent of all the
complaints [the FCC] receive[s].” FCC, The FCC’s Push to
Combat Robocalls & Spoofing, https://www.fcc.gov/about-

10
fcc/fcc-initiatives/fccs-push-combat-robocalls-spoofing.
As noted above in 2019 alone, the FTC recievd 3.7 million
complaints in addition to the States likewise fielding a
constant barrage of complaints. Barr supra at 2343.
The FCC’s and FTC’s figures almost certainly
understate the problem’s scope as many consumers do not
contact Federal government agencies to file a complaint.
It has been reported that Americans received over 30
billion robocalls in 2017 alone. Herb Weisbaum, It’s Not
Just You—Americans Received 30 Billion Robocalls Last
Year, NBC News (Jan. 17, 2018). The number of robocalls
has almost doubled in just two years with 58.5 billion
robocalls reported for 2019. See Americans Hit by Over
58 Billion Robocalls in 2019, Says YouMail Robocall
Index, Cision PR Newswire (Jan 15, 2020), https://www.
prnewswire.com/news-releases/americans-hit-by-over58-billion-robocalls-in-2019-says-youmail-robocallindex-300987126.html. Likewise, The New York Times has
reported extensively on the exploding number of robocall
complaints and widespread consumer outrage about illegal
telemarketing. Gail Collins, Let’s Destroy Robocalls, N.Y.
Times (Mar. 1, 2019); Tara Siegel Bernard, Yes, It’s Bad.
Robocalls, and Their Scams, Are Surging (N.Y. Times,
May 6, 2018).
And in the face of the Covid-19 pandemic, the FCC has
reported “phone scammers have seized the opportunity,
using robocalls and call-back scams to offer free home
testing kits, promote bogus cures, sell health insurance,
and promise financial relief.” See https://www.fcc.gov/
covid-19-robocall-scams (last visited October 9, 2020). It
is worth noting that many of these scams do not make just
one call to the consumer, but repeatedly call back the same

11
consumer. This means that these repeated calls are not
random because the phone numbers that are repeatedly
called back had to have been stored in a database prior
to the subsequent calls. The FCC also reported that
“Consumers aren’t the only target. Small businesses
are also getting scam calls about virus-related funding
or loans and online listing verification.” Id. Without the
TCPA protections against these calls, most of these scams
will go unaddressed since it is beyond the ability of most
consumers to litigate a fraud claim against a caller.
This explosion of unwanted robocalls has occurred
despite the protections and penalties provided by
the TCPA. Thus, it is self-evident that without those
protections and penalties, the already-enormous number
of unwanted robocalls would exponentially increase, as the
low cost and high scalability of automated call technology
would grant nearly any company with a product or service
the unfettered ability to assault the full public with a nonstop wave of unwanted calls around the clock.
Since the TCPA’s initial passage in 1991, robocalls
have become an even more pernicious problem because
scammers are increasingly using robocalling technology
to perpetrate their schemes, often targeting senior
citizens and other vulnerable populations. Scammers
are using spoofing technology (which allows them to
fraudulently hide the originating number of the call to,
for example, make it look like a call is coming from a
recipient’s neighbor or a trusted entity) in conjunction
with automation to make robocalls which target and
reach an enormous number of vulnerable consumers. For
example, in a span of three month between 2015 and 2016,
Adrian Abramovich allegedly made 96 million spoofed

12
robocalls to trick consumers into sales pitches for vacation
packages. FCC, FCC ISSUES $120 MILLION FINE FOR
SPOOFED ROBOCALLS (2018), https://www.fcc.gov/
document/fcc-fines-massive-neighbor-spoofing-robocalloperation-120-million. In 2019, Congress determined that
these scam robocalls are a growing concern and estimated
that “in 2019, nearly 50 percent of all calls to mobile phones
will be scam robocalls.” S. Rep. No. 116-41, 2–3 (2019).
A reversal of Facebook would exclude from the
definition of ATDS unwanted robocalls where the number
originated from a list even where the caller has no consent
or relationship with the business or consumer called. In
such a scenario, the TCPA would exclude a telemarketing
robocall campaign that called every cellular number in the
entire Country every hour of the day, which can easily be
done via the internet from a home office, let alone a wellresourced telemarketer.
C.

Narrowing the TCPA would be disastrous
for America because unrestricted robocalls
would completely undermine the telephone as
a means of communication.

Even with the TCPA in place, robocalls are already
threatening the viability of the telephone as a useful means
of communication for commercial, governmental, or social
uses. Lately, Americans have been screening all of their
calls, causing both known and unknown consequences.
Many people now refuse to answer calls from unfamiliar
sources, sometimes leading to harmful results. See, e.g.,
Tim Harper, Why Robocalls are Even Worse Than You
Thought, Consumer Reps., May 15, 2019 (reporting delays
in medical treatment because people no longer respond to

13
calls from medical specialists); Tara Siegel Bernard, Yes,
It’s Bad. Robocalls, and Their Scams, Are Surging, N.Y.
Times (May 6, 2018) (reporting that one doctor ignored
a call from the emergency room because he assumed it
was a robocall).
In one sur vey, 70 percent of respondents said
they stopped answering calls from numbers they do
not recognize. Octavio Blanco, Mad About Robocalls,
Consumer Reps. (Apr. 2, 2019). As a result, robocallers
have simply started dialing more numbers in order to
reach the same number of people. Elaine S. Povich, States
Try to Silence Robocalls, But They’re Worse Than Ever,
Pew Stateline Blog (July 25, 2018), https://www.pewtrusts.
org/en/research-and-analysis/blogs/stateline/2018/07/25/
states-try-to-silence-robocalls-but-theyre-worse-thanever. The constant bombardment of our mobile devices
could render them effectively useless as a means of
telephony.
A deluge of robocalls would also have a disproportionate
impact on consumers, often low income individuals and
seniors, who rely on pre-paid plans. Lawmakers knew
this was a problem when TCPA was first enacted: since
minutes were expensive and robocalls could cause
consumers to use up their valuable minutes, they limited
robocalls to cellular phones. And even today, for those
with pre-paid plans, minutes remain precious, and the
rules remain essential. If Facebook is reversed some
consumers might simply disable the voice calls feature on
their phones to try to protect themselves, while possibly
preventing the legitimate and necessary communications
and commerce from flowing from one phone to another.
The impact would be dramatic and devastating. So just as

14
the number of unwanted calls continues to grow despite
the existence and enforcement of the TCPA, in the absence
of the safeguards provided by the TCPA, the number of
unwanted calls would grow exponentially, as businesses
and others could make robocalls with impunity.
As such, interpreting ATDS to only apply to random
dialing systems that create numbers out of thin air ignores
the intent of Congress shown by the TCPA’s legislative
history when the legislation was enacted with bipartisan
support, and would render our cell phones utterly useless
as a means of communication.
II. Facebook should be affirmed.
The TCPA defines ATDS as “equipment which has the
capacity— (A) to store or produce telephone numbers to
be called, using a random or sequential number generator;
and (B) to dial such numbers.” 47 U.S.C. § 227(a)(1).
The Ninth Circuit held:
By definition, an ATDS must have the capacity
“to store or produce telephone numbers to be
called, using a random or sequential number
generator.” 47 U.S.C. § 227(a)(1)(A). In Marks,
we clarified that the adverbial phrase “using
a random or sequential number generator”
modifies only the verb “to produce,” and not
the preceding verb, “to store.” 904 F.3d at
1052. In other words, an ATDS need not be
able to use a random or sequential generator to
store numbers—it suffices to merely have the
capacity to “store numbers to be called” and “to
dial such numbers automatically.” Id. at 1053.

15
Duguid v. Facebook, Inc., 926 F.3d 1146, 1151 (9th Cir.
2019)
The Ninth Circuit’s reading is consistent with the
language of the TCPA and context of the dialing systems
Congress was concerned about when the TCPA was
enacted.
A.

ATDS Is Not Limited to Devices that Randomly
Produce Telephone Numbers

The definition of ATDS is written in the disjunctive –
its plain language encompasses systems that automatically
dial telephone numbers after either storing those
telephone numbers to be called (the “store” prong) or
producing those telephone numbers to be called using a
random or sequential number generator (the “produce”
prong).
Under this interpretation, the clause “using a random
or sequential number generator” modifies only the verb
“produce;” it does not reach back to also modify the verb
“store.” “This means the numbers to be called by an ATDS
may be ‘stored’ or they may be ‘produced,’ but only if they
are produced must they come from ‘a random or sequential
number generator.’” Duran v. La Boom Disco, Inc., 955
F.3d 279, 283-84 (2d Cir. 2020). By this reading, the ATDS
definition is not limited to devices with the capacity to
generate random or sequential telephone numbers, but
“also includes devices with the capacity to dial stored
numbers automatically.” Marks v. Crunch San Diego,
LLC, 904 F.3d 1041, 1052 (9th Cir. 2018).

16
B. The Statutory Context Confirms Regulation
of List-Based Dialing Systems
The statutory context of the TCPA confirms its
application to list-based autodialers and precludes
reversal of the Ninth Circuit’s interpretation. First, the
legislative history set forth above makes it clear Congress
was concerned with corporate America buying lists to
make telemarketing calls and not just randomly created
numbers.
Second, the statute creates an affirmative defense
for ATDS calls made to cellular telephone numbers when
they are made with “the prior express consent of the
called party.” 47 U.S.C. § 227(b)(1)(A). A consent defense
for ATDS calls serves little purpose if the only systems
regulated by the ATDS provision are those that dial
telephone numbers generated out of thin air. Robocalling
users of those systems could only ever establish a consent
defense through sheer dumb luck because they are,
by definition, calling completely arbitrary telephone
numbers. The only conceivable way for callers using
automated systems to ensure they call telephone numbers
with consent is to use a targeted list of telephone numbers
believed to have consent. But, of course, if they do that,
then they are not using an ATDS (as Facebook sees it) in
the first place, and thus have no need for a consent defense.
See Marks, 904 F.3d at 1052 (“to take advantage of this
permitted use, an autodialer would have to dial from a
list of phone numbers of persons who had consented to
such calls, rather than merely dialing a block of random
or sequential numbers.”)

17
As the Sixth Circuit aptly held in Allan, “[t]he consent
exception is key to defining ATDS because an exception
cannot exist without a rule. An exception for consented-to
calls implies that the autodialer ban otherwise could be
interpreted to prohibit consented-to calls. And consentedto calls by their nature are calls made to known persons,
i.e., persons whose numbers are stored on a list and were
not randomly generated. Therefore, the TCPA’s exception
for calls made to known, consenting recipients implies that
the autodialer ban applies to stored-number systems.”
Allan v. Penn. Higher Educ. Assistance Agency, 2020
U.S. App. LEXIS 23935 at 15-16 (6th Cir. July 29, 2020).
Although the telemarketing industry argues §
227(b)(1) also regulates calls made “using an artificial or
prerecorded voice” such that the consent defense is not
applicable, that argument fails. The TCPA does not limit
the consent defense only to prerecorded calls. As both
the Second Circuit and Sixth Circuit have now held, “the
language of the statute does not make that distinction.”
Allan, 2020 U.S. App. LEXIS 23935 at 16-17 (quoting
Duran, 955 F.3d at 279, n.20).
As shown above, Congress was concerned about both
database telemarketing and random number generation
when enacting the TCPA in 1991. Allowing unwanted
robocalls simply because the numbers came from a list
defeats the language and purpose of the TCPA.

18
CONCLUSION
The TCPA remains a critical piece of legislation.
By restricting calls made to cell phones using robocall
technology, among other provisions, the TCPA prevents a
countless number of unwanted robocalls every year, every
day, and indeed every hour and minute, from intruding
on Americans’ privacy, scamming their wallets, and
overwhelming our confidence in the nation’s telephone
networks. These calls harm business and consumers alike.
For the foregoing reasons, amici respectfully request
that the Court affirm Duguid v. Facebook, Inc., 926 F.3d 1146,
1151 (9th Cir. 2019).
Respectfully submitted,
Keith J. Keogh
Counsel of Record
Keogh Law, Ltd.
55 West Monroe Street, Suite 3390
Chicago, IL 60603
(866) 726-1092
keith@keoghlaw.com
Counsel for Amici Curiae
Dated: October 21, 2020

1a
Appendix
Appendix — LIST
OF AMICI CURIAE
Sen. Edward J. Markey (D-Mass.)
Sen. Robert Menendez (D-N.J.)
Sen. Ben Cardin (D-Md.)
Sen. Jeff Merkley (D-Ore.)
Sen. Richard Blumenthal (D-Conn.)
Sen. Elizabeth Warren (D-Mass)
Sen. Tammy Baldwin (D-Wisc.)
Sen. Sheldon Whitehouse (D-R.I.)
Sen. Ron Wyden (D-Ore.)
Sen. Sherrod Brown (D-OH)
Sen. Tom Carper (D-Del.).
Rep. Anna G. Eshoo (CA-18)
Rep. Doris Matsui (CA-06)
Rep. Tony Cárdenas (CA-29)
Rep. Jerry McNerney (CA-09)

2a
Appendix
Rep. Jackie Speier (CA-14)
Rep. Jamie Raskin (MD-08)
Rep. Alcee L. Hastings (FL-20)
Rep. Ed Case (HI-01)
Rep. Bobby L. Rush (IL-01)
Rep. Marc A. Veasey (TX-33)

